   Peace Corps
   Office of Inspector General




         Mid-Atlantic Regional Recruiting Office




         Final Audit Report:
Mid-Atlantic Regional Recruiting Office
              IG-12-01-A
                                                   October 2011
                                   EXECUTIVE SUMMARY

The Volunteer Recruitment and Selection office (VRS) is responsible for recruiting, selecting,
and placing Peace Corps Volunteers at posts for overseas service. VRS maintains nine Regional
Recruitment Offices (RRO) located in: Boston, New York City, Rosslyn (now located at Peace
Corps headquarters in Washington, D.C.), Atlanta, Chicago, Dallas, Seattle, San Francisco and
Los Angeles. RROs conduct recruiting, selecting, and processing of Peace Corps Volunteer
candidates within an assigned geographical area. The Mid-Atlantic RRO recruits applicants
from Delaware, the District of Columbia, Maryland, North Carolina, Virginia and West Virginia.

In general, the Mid-Atlantic RRO’s financial and administrative operations were functioning
satisfactorily and complied with agency policies and federal regulations. However, the Mid-
Atlantic RRO did not have a formal diversity plan as part of its overall recruiting strategy as
delineated in the Peace Corps Strategic plan for 2009-2014, and we identified administrative
operations not in compliance with agency policy and guidance. In addition, we noted
deficiencies in contracting and property management.

    •   The Mid-Atlantic RRO administrative specialist did not have an official Certificate of
        Appointment to perform contracting officer duties for a Blanket Purchase Agreement
        (BPA) contract. Further, the administrative specialist/contracting officer did not
        complete the contracting officer training prior to performing contracting officer duties as
        required under agency policy and guidance.

    •   The solicitations for a part-time, on campus, Peace Corps Volunteer recruiter position
        inappropriately included a U.S. Department of Labor (DOL) Service Contract Act Wage
        Determination for the recruiter position.

    •   The Mid-Atlantic RRO’s equipment and supply inventory could not be verified to
        existing inventory records because the inventory records had not been kept current.

Management concurred with all 8 of our recommendations and took timely action to remediate
our findings. As a result, we closed 7 recommendations. Recommendation 8 remains open
pending a copy of the goals and milestones for the diversity outreach strategy.




Final Audit Report: Peace Corps Mid-Atlantic Regional Recruiting Office                               i
                                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY .................................................................................................................... i

TABLE OF CONTENTS ......................................................................................................................1

BACKGROUND ..................................................................................................................................1

AUDIT RESULTS ...............................................................................................................................1
          COMMERCIAL CONTRACTS .............................................................................................................................. 1

          STRATEGY CONTRACTS ................................................................................................................................... 3

          PROPERTY MANAGEMENT................................................................................................................................ 4

          RECRUITING ..................................................................................................................................................... 5


QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE .......................................................6

LIST OF RECOMMENDATIONS .........................................................................................................7

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY...............................................................8

APPENDIX B: LIST OF ACRONYMS ..................................................................................................9

APPENDIX C: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT ...............................10

APPENDIX D: OIG COMMENTS.....................................................................................................16

APPENDIX E: AUDIT COMPLETION AND OIG CONTACT .............................................................17
                                            BACKGROUND
The Office of Inspector General conducted an audit of the Mid-Atlantic RRO October 19 -
November 3, 2010. The Mid-Atlantic RRO was last audited in 2006. The total budget for FY
2010 was $257,300 and FY 2009 was $223,700.

The Mid-Atlantic RRO works to attract applicants to the Peace Corps by communicating the
mission of the Peace Corps through diverse media groups and carrying out targeted recruitment
campaigns. The goal and result of these activities cumulates in the interviewing, selecting, and
processing of Peace Corps candidates to volunteer overseas in the following areas: agriculture,
environment, business, information and communication technology, youth and community
development, education, and health.

Our overall objective in auditing the Mid-Atlantic RRO was to determine if the financial and
administrative operations were functioning effectively and complied with Peace Corps policies
and federal regulations. Appendix A provides a full description of our audit objective, scope,
and methodology.



                                          AUDIT RESULTS

C OMMERCIAL C ONTRACTS

The administrative specialist was issuing contract modifications and orders above the micro
purchase level under Peace Corps wide Blanket Purchase Agreement (BPA) without the
proper Certificate of Appointment and adequate training.
For contract orders above the $3,000 micro-purchase level, the Federal Acquisition Regulation
(FAR) states:

       Contracting officers shall be appointed in writing on an SF 1402, Certificate of Appointment, which shall
       state any limitations on the scope of authority to be exercised, other than limitations contained in applicable
       law or regulation. Appointing officials shall maintain files containing copies of all appointments that have
       not been terminated.

The $3,000 micro-purchase authority/limits specified in Peace Corps Manual section (MS) 732
are not required to be appointed on an SF 1402, but shall be appointed in writing in accordance
with agency procedures.

The Mid-Atlantic RRO has one commercial contract above the micro purchase threshold. This
contract was a Peace Corps wide BPA, contract, No. PC-09-9-016. The BPA contract was
awarded as a small business set-aside contract on January 7, 2009. Under the BPA, the
contractor is to provide "various types of advertisements in college/university publications
throughout the United States." The BPA contract base performance period was from December

Final Audit Report: Peace Corps Mid-Atlantic Regional Recruiting Office                                             1
31, 2008-November 30, 2009. The contract has four one year option periods from December 1st
thru November 30th with the final option period ending on November 30, 2013. Orders under the
BPA are made through call orders. Under the BPA each RRO has a designated/authorized
position to place call orders up to $25,000 and the Office of Acquisition and Contract
Management (OACM) is authorized to place call/orders up to $100,000.

The Mid-Atlantic RRO administrative specialist was designated in writing by OACM to issue
calls/orders up to $25,000. However, OACM did not prepare the administrative specialist’s
“Certificate of Appointment” to perform contracting officer duties.

In addition, the administrative specialist did not have the required contracting officer training to
perform contracting officer duties under the BPA. Office of Federal Procurement Policy Letter
05-01 required agencies to establish requirements for continuous learning for contracting officers
and contracting officer technical representatives (COTRs) and encouraged at a minimum, 40
hours of training every two years. It also established training requirements for federal contract
series.

Although the administrative specialist received COTR training after our site visit, additional
training is needed. The administrative specialist requires the ability to place orders and sign
contract modifications above the $3,000 micro-purchase limit under the RRO BPA, contract, No.
PC-09-9-016. In accordance with FAR 1.602-2, the Peace Corps COTR Certification Procedures
Manual, Section IV, states that serving as a COTR does not give the administrative specialist the
“…authority to make any commitments or changes that affect price, quality, quantity, delivery,
or other terms and conditions of the contract.” Potentially, lacking sufficient procurement
training, the administrative specialist/contracting officer may unknowingly obligate Peace Corps
funds for goods and/or services not required for Peace Corps operations.

   We Recommend:

   1. The Office of Acquisitions and Contract Management issue all modifications and orders
      above the $3,000 micro-purchase limit for the blanket purchase agreement.


The BPA contract files did not include the administrative specialist/contracting officer’s
written justification and basis for determining the contractor’s price for a sole source award
was fair and reasonable.

There was no evidential data in the contract file to support that the administrative specialist
performed an analysis to determine the contractor’s price was fair and reasonable. A
contributing factor to this situation was the administrative specialist’s lack of sufficient
procurement/acquisition training.

Peace Corps contracting personnel are required under MS 732 to comply with part 13 of the
Federal Acquisition Regulations. Before making award, FAR 13.106-3 requires the contracting
officer to determine if the proposed price is fair and reasonable:



Final Audit Report: Peace Corps Mid-Atlantic Regional Recruiting Office                            2
       If only one response is received, the contracting officer is required to include a statement of price
       reasonableness in the contract file. The contracting officer may base the statement on: Market research;
       Comparison of the proposed price with prices found reasonable on previous purchases; Current price lists,
       catalogs, or advertisements. However, inclusion of a price in a price list, catalog, or advertisement does
       not, in and of itself, establish fairness and reasonableness of the price; A comparison with similar items in a
       related industry; The contracting officer’s personal knowledge of the item being purchased; Comparison to
       an independent Government estimate; or Any other reasonable basis.

Failure to perform an adequate evaluation of a sole source award may result in the Peace Corps
paying too much for the goods/services received.

   We Recommend:

   2. The administrative specialist include in the blanket purchase agreement contract file the
      written justification and basis for determining the contractor’s price for a sole source
      award for advertising services was fair and reasonable.


STRATEGY C ONTRACTS

The Mid-Atlantic RRO solicitations/request for proposals under strategy contracts
inappropriately included a U.S. Department of Labor Service Contract Act Wage
Determination for part-time student recruiter positions.

Strategy contracts are awarded to universities to provide Peace Corps with on-campus facilities
and a part-time recruiter position. The part-time recruiters make referrals for potential Peace
Corps Volunteers and provide public relations and information about the Peace Corps to
university students. The part-time recruiters are returned Peace Corps Volunteers who are also
pursuing graduate studies at a university. The Mid-Atlantic RRO has strategy contracts with five
universities: University of North Carolina, North Carolina State University, University of
Virginia, Virginia Tech, and Howard University.

The Mid-Atlantic RRO issued solicitations/requests for proposal to various universities for
Strategy Contracts. The solicitations/requests for proposal included the regional Department of
Labor (DOL) Service Contract Act (SCA) Wage Determination for a Personnel Assistant III
position for the part-time on-campus recruiter position. A DOL SCA Wage Determination in
solicitations/request for proposal requires the contractor to use, at a minimum, the wages and
benefits specified in the wage determination in computing its proposed labor costs. A
prospective contractor’s proposal is technically not responsive if the wages and benefits used in
computing its labor costs are lower than the applicable DOL SCA wage determination. The
solicitations were not amended to eliminate the requirement for using DOL SCA Wage
Determination. However, the strategy contracts, as awarded, did not include the SCA as an
applicable contract clause.




Final Audit Report: Peace Corps Mid-Atlantic Regional Recruiting Office                                             3
   We Recommend:

   3. The Office of Acquisitions and Contract Management review, prior to issuance, the
      administrative specialist’ solicitations/request for proposals for strategy contracts to
      ensure including wage determinations are appropriate.


P ROPERTY M ANAGEMENT

The Mid-Atlantic RRO’s equipment and supply inventory could not be verified to existing
inventory records because the inventory records had not been kept current.

We were unable to determine when the last inventory verification was performed. Some items
did not have numbered property tags, some had a former facilities management contractor’s
inventory tags, and some had Peace Corps inventory tag numbers that could not be linked to the
existing inventory records.

MS 511.5.2 states, “Each office must take an inventory at least once a year, physically counting
each item to verify that all property is on hand and properly recorded in the property
management database.” MS section 511.5.1 states, “The following items should be inventoried:
Non-expendable items with a value of $500 US or more; Items costing less than $500 US that
are highly pilfer able; and Items costing less than $500 that have been assigned a manufacturer's
serial number.” In accordance with MS 511, the Mid-Atlantic RRO must:


   •   certify and submit inventory reports by October 15th of each year;
   •   attach a Peace Corps property tag on each piece of capitalized property;
   •   maintain property records for three years.

Potentially, the Peace Corps’ property may be lost, stolen or in an unusable condition, which
could impede the Peace Corps ability to perform its recruiting duties. In addition, the Peace
Corps may have to purchase replacements for items lost or stolen with funds originally intended
for other purposes.

   We Recommend:

   4. The regional manager conduct a physical inventory count of post property and affix
      inventory tags to capitalized items in accordance with agency policy.

   5. The regional manager submit the results of the inventory to the Peace Corps Office of
      Administrative Services in accordance with agency policy.

   6. The regional manager maintain all property records for three years as required in
      accordance with agency policy.




Final Audit Report: Peace Corps Mid-Atlantic Regional Recruiting Office                             4
R ECRUITING

The Mid-Atlantic RRO did not have a formal recruiting plan, which includes diversity to
increase ethnic diversity and promote socio-economic diversity.

Strategic Goal Four of the Peace Corps Strategic Plan for 2009-2014, states “Provide Volunteers,
who represent the diversity of Americans, to meet the evolving technical needs of host
countries.”

A formal diversity recruiting strategy should consider gender, ethnic, racial and socio-economic
diversity to ensure volunteers represent the diversity of Americans. This is a challenge for Peace
Corps recruiting across the country. The Peace Corps Assessment states:

       Because regional recruitment offices and recruiters’ performances are primarily based on
       how many applicants are nominated or recommended to move forward in the process,
       recruitment efforts are primarily directed at colleges and universities that have historically
       produced a high number of Volunteers. This creates an incentive to repeatedly invest time,
       energy, and resources at colleges and universities and within departments, clubs, etc. where
       the Peace Corps has already established a relationship.

The Mid-Atlantic RRO had focused its recruiting strategy and resources to seek potential Peace
Corps Volunteer recruits from colleges and universities where successful recruiting has occurred
in the past. The Mid-Atlantic RRO’s approach has been successful in meeting its numeric
recruiting goals, but it has not contributed to a more diverse recruitment.

The Mid-Atlantic RRO has taken steps to improve racial diversity by expanding the “Strategy
Contract” program to Howard University, a Historically Black University. This program
provides the Peace Corps with on-campus facilities and a paid part-time recruiter position.
However, the Mid-Atlantic RRO had not established recruiting milestones or goals to measure
the performance at Howard University. Performance measurement, an essential part of a
recruitment strategy, helps assess current efforts and provides useful information to ensure scare
resources are used effectively and efficiently.

   We Recommend:

   7. The regional manager develop an integrated diversity recruitment strategy to include
      gender, ethnic, racial, and socio-economic diversity components to meet the intent of
      Strategic Goal Four of the Peace Corps Strategic Plan for 2009-2014.

   8. The regional manager establish measurable goals and milestones to measure and evaluate
      the performance of its integrated diversity recruitment strategy.




Final Audit Report: Peace Corps Mid-Atlantic Regional Recruiting Office                                 5
                         QUESTIONED COSTS AND
                      FUNDS TO BE PUT TO BETTER USE

We did not identify questioned costs or funds to be put to better use during the course of the
audit.




Final Audit Report: Peace Corps Mid-Atlantic Regional Recruiting Office                          6
                          LIST OF RECOMMENDATIONS

We recommend:


   1. The Office of Acquisitions and Contract Management issue all modifications and orders
      above the $3,000 micro-purchase limit for the blanket purchase agreement.

   2. The administrative specialist include in the blanket purchase agreement contract file the
      written justification and basis for determining the contractor’s price for a sole source
      award for advertising services was fair and reasonable.

   3. The Office of Acquisitions and Contract Management review, prior to issuance, the
      director of management and operation’s solicitations/request for proposals for strategy
      contracts to ensure including wage determinations are appropriate.

   4. The regional manager conduct a physical inventory count of post property and affix
      inventory tags to capitalized items in accordance with agency policy.

   5. The regional manager submit the results of the inventory to the Peace Corps Office of
      Administrative Services in accordance with agency policy.

   6. The regional manager maintain all property records for three years as required in
      accordance with agency policy.

   7. The regional manager develop an integrated diversity recruitment strategy to include
      gender, ethnic, racial, and socio-economic diversity components to meet the intent of
      Strategic Goal Four of the Peace Corps Strategic Plan for 2009-2014.

   8. The regional manager establish measurable goals and milestones to measure and evaluate
      the performance of its integrated diversity recruitment strategy.




Final Audit Report: Peace Corps Mid-Atlantic Regional Recruiting Office                           7
APPENDIX A


                 OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective in auditing the Mid-Atlantic RRO was to determine whether the financial and
administrative operations are functioning effectively and comply with Peace Corps policies and
federal regulations. Our audit conclusions are based on information from three sources: (1)
document and data analysis, (2) interviews, and (3) direct observation. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provided a reasonable basis for our findings and conclusions based
on our audit objectives.

The Mid-Atlantic RRO staff was very helpful in coordinating their plans to meet the audit
schedule, gathering information, and answering questions. Overall, documentation was well
organized and readily available.

The audit of the Mid-Atlantic RRO covered fiscal years 2009, 2010 and the first quarter of 2011,
through December 31, 2010. We interviewed key staff including the RRO Manager, the AO,
and the recruiting staff. At headquarters, we conducted a general briefing with the VRS.

We relied on computer-processed data from the post’s accounting system in collaboration with
documentation such as invoices, contracts, and receipts. While we did not test the system’s
controls, we believe the information generated by the system and used by us was sufficiently
reliable for our audit objective.

Our audit criteria were derived from the following sources: federal regulations, the Peace Corps
Manual, Statement of Federal Financial Accounting Concepts, Standards for Internal Control in
the Federal Government, Federal Information Processing Standards, and current Peace Corps
initiatives and policies.




Final Audit Report: Peace Corps Mid-Atlantic Regional Recruiting Office                          8
APPENDIX B


                                  LIST OF ACRONYMS

            BPA                      Blanket Purchase Agreement
            COTR                     Contracting Officer’s Technical Representative
            DOL                      U.S. Department of Labor
            FAR                      Federal Acquisition Regulation
            MS                       Peace Corps Manual Section
            OACM                     Office of Acquisition and Contract Management
            RRO                      Regional Recruiting Office
            SCA                      Service Contract Act
            VRS                      Volunteer Recruitment and Selection




Final Audit Report: Peace Corps Mid-Atlantic Regional Recruiting Office               9
APPENDIX C

  MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT




Final Audit Report: Peace Corps Mid-Atlantic Regional Recruiting Office   10
APPENDIX D

                                    OIG COMMENTS
Management concurred with all 8 of the recommendations. We closed 7 recommendations based
on review of supporting documentation. Recommendation 8 remains open pending a copy of the
goals and milestones for the diversity outreach strategy.

In their response, management described actions they are taking or intend to take to address the
issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the region or post has taken these actions, nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.




Final Audit Report: Peace Corps Mid-Atlantic Regional Recruiting Office                        16
APPENDIX E


                 AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION                   Joe Wagner, Forensic Auditor, performed the Mid-Atlantic Regional
                                   Recruiting Office audit.




                                   Bradley Grubb
                                   Assistant Inspector General for Audit



OIG CONTACT                        If you wish to comment on the quality or usefulness of this report to
                                   help us strengthen our product, please email Bradley Grubb, Assistant
                                   Inspector General for Audit, at bgrubb@peacecorps.gov, or call him
                                   at (202) 692-2914.




Final Audit Report: Peace Corps Mid-Atlantic Regional Recruiting Office                             17
        Help Promote the Integrity, Efficiency, and
             Effectiveness of the Peace Corps
 Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or unlawful
activity involving Peace Corps programs or personnel should call or write the Office
    of Inspector General. Reports or complaints can also be made anonymously.




                                 Contact OIG


                                     Hotline:
            U.S./International:       202.692.2915
            Toll-Free (U.S. only):    800.233.5874

            Email:                    OIG@peacecorps.gov
            Web Form:                 www.peacecorps.gov/OIG/ContactUs

            Mail:                     Peace Corps Office of Inspector General
                                      P.O. Box 57129
                                      Washington, D.C. 20037-7129

                         Main Office: 202.692.2900
